                The Department of the Treasury Needs to
              Improve Its Management of Employee Express
                             System Funds

                                 September 2005

                       Reference Number: 2005-10-153




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                         September 20, 2005


      MEMORANDUM FOR CHIEF INFORMATION OFFICER, DEPARTMENT OF THE
                     TREASURY



      FROM:                   Pamela J. Gardiner
                              Deputy Inspector General for Audit

      SUBJECT:                Final Audit Report - The Department of the Treasury Needs to
                              Improve Its Management of Employee Express System Funds
                              (Audit # 200510013)


      This report presents the results of our review of the Employee Express System. This
      audit was conducted to evaluate the services and benefits provided by the Employee
      Express System to determine whether use of this System is cost effective.
      The Office of Personnel Management Employee Express System was developed in
      1994 as a means for Federal Government employees to make changes to their payroll
      information such as pay allotments and deductions. In 2003, the Department of the
      Treasury’s (the Treasury) payroll service provider, the National Finance Center (NFC),
      began offering its customers an alternative to the Employee Express System, referred
      to as the Employee Self-Service Option. This Option was offered to NFC customers at
      no additional charge. However, it does not yet appear feasible for the Treasury to
      convert from the Employee Express System to the Employee Self-Service Option
      offered by the NFC.
      The Treasury and its bureaus plan to continue using the Employee Express System
      until the NFC completes planned upgrades to its Employee Self-Service Option
      software and a restructuring of its pricing plan. The NFC Employee Self-Service Option
      does not offer telephone access for employees to make changes to their NFC accounts.
      In addition, it does not offer telephone access to a Help Desk or have the ability to retain
      historical information needed for employees’ Official Personnel Files. The Internal
      Revenue Service (IRS) and the NFC are working to address these areas, but some
      solutions are in the preliminary stages of planning. Furthermore, the NFC plans to
      change its price structure in Fiscal Year (FY) 2006. This price structure is not yet
      available; consequently, it is not possible to determine if a transition to the NFC
      Employee Self-Service Option would be cost effective.
                                                      2

Notwithstanding, the Treasury needs to improve its management of the funds
contributed by its bureaus for use of the Employee Express System. The Treasury
bureaus that had their Employee Express System accounts managed by the Treasury
HR Connect Program Office1 had accumulated large surplus fund balances for the
Employee Express System; nonetheless, the HR Connect Program Office continued to
bill the bureaus each year. For example, the IRS had a balance of about $1.6 million at
the end of FY 2004; however, the HR Connect Program Office sent the IRS a bill for an
additional $250,000 in FY 2005—even though the IRS’ actual costs for FY 2004 were
just $375,027. The HR Connect Program Office did not notify the bureaus that they had
paid sufficient funds to cover the expected annual costs of the Employee Express
System. For FYs 2002 through 2004, the Treasury HR Connect Program Office made
mathematical errors that resulted in overstated billing documents being sent to the
bureaus, including over $526,000 erroneously billed to the IRS. The IRS was also billed
$842,359 for future development costs that the HR Connect Program Office could not
support.
We recommended the Associate Chief Information Officer (CIO), HR Connect Program
Office, clearly define the Office’s role and responsibilities for managing the Employee
Express System, communicate those responsibilities to the supported Treasury
bureaus, and notify bureaus that they have paid excessive funds for the Employee
Express System so surplus amounts can be refunded or applied to future Employee
Express System costs. We also recommended the Associate CIO, HR Connect
Program Office, establish a quality review process for the Office’s budget preparation,
ensure Collection Letters show how much funding is being requested for the Employee
Express System, and disclose to bureaus how much funding is already available.
Finally, we recommended the IRS Chief, Agency-Wide Shared Services, request
detailed supporting information, including fund balances, before authorizing payment for
Employee Express System costs.
Management’s Response: Treasury and IRS management agreed with our
recommendations and initiated corrective actions to address the problems identified in
the report. These actions include better defining the HR Connect Program Office’s roles
and responsibilities for managing the Employee Express System accounts and
transmitting this information by memorandum to the Treasury bureaus through the
HR Connect/NFC Payroll Operations Governance Board. The HR Connect Program
Office notified all Treasury bureaus of the surplus funds in their accounts and gave them
an option to either receive a refund or apply the funds toward future Employee Express
costs. The HR Connect Program Office will review budget estimates, along with current
account balances, before they are sent to the Treasury bureaus. In addition, all
calculations used to obtain the budget estimate will be clearly noted and all assumptions


1
  For the period covered by this review, what is now known as the HR Connect Program Office changed names and
reporting structure. It was called the Office of Human Resources Enterprise Solutions until September 2003. At
that time, certain functions were split into the Office of Workforce Technology and the Office of Workforce
Strategy and Effectiveness until May 2004, and then these functions were aligned under the HR Connect Program
Office.
                                                        3

will be recorded. The HR Connect Program Office will request that the Deputy Chief
Financial Officer revise the Collection Letter to include a budget line item specifically for
the Employee Express System to show how much of the funding request is related to
the System. The HR Connect Program Office will inform bureaus of their account
balances before the Collection Letters are presented to bureau officials for approval.
The IRS Chief, Agency-Wide Shared Services, requested that $750,000 of the IRS’
Employee Express System balance be used to cover future HR Connect operations and
maintenance costs. In addition, the Office of Agency-Wide Shared Services will review
and substantiate future billings and cost estimates for the Employee Express System
and other programs billed through the Treasury’s Working Capital Fund.2
Treasury management has taken actions to address the fund balances in the Employee
Express System accounts for the Treasury bureaus managed by the HR Connect
Program Office, which includes the $1,688,771 in estimated savings from our
recommendations. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




2
 A Working Capital Fund is a revolving fund authorized by law to finance a cycle of operations in which the costs
for goods or services provided are charged back to the recipient.
                         The Department of the Treasury Needs to Improve Its
                          Management of Employee Express System Funds




                                                  Table of Contents


Background ............................................................................................... Page 1
Conversion to the Employee Self-Service Option Offered by
the Payroll Service Provider Is Not Yet Feasible ....................................... Page 3
The Department of the Treasury Overbilled the Internal
Revenue Service and Other Bureaus for Their Shares of
Employee Express System Costs ............................................................. Page 10
         Recommendation 1: .......................................................................Page 15
         Recommendations 2 through 4:.....................................................Page 16
         Recommendation 5: .......................................................................Page 17

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 18
Appendix II – Major Contributors to This Report ....................................... Page 19
Appendix III – Report Distribution List ....................................................... Page 20
Appendix IV – Outcome Measures............................................................ Page 21
Appendix V – Management’s Response to the Draft Report……………….Page 22
             The Department of the Treasury Needs to Improve Its
              Management of Employee Express System Funds

                            The Office of Personnel Management (OPM) Employee
Background
                            Express System was developed in 1994 as a means for
                            Federal Government employees to make changes to their
                            payroll information such as pay allotments and deductions.
                            The Employee Express System interfaces with payroll
                            systems and allows employees to make changes
                            electronically via computer or touchtone telephone, thus
                            avoiding the need for paper forms and involvement of
                            human resources personnel. The Employee Express System
                            was developed and funded by a group of Federal
                            Government agencies (referred to as the Employee Express
                            User Board) with the goal of sharing resources and
                            technology to produce a uniform system for all employees.
                            In Fiscal Year (FY) 2005, 25 agencies used the Employee
                            Express System to service 826,700 employees.
                            The Department of the Treasury (the Treasury) and its
                            bureaus are members of the Employee Express User Board.
                            Treasury employees use the Employee Express System to
                            make changes to their pay information. Table 1 shows the
                            numbers and types of transactions that Treasury employees
                            initiated through the system during FY 2004.
                               Table 1: FY 2004 Employee Express System Transactions by
                                                 Treasury Employees
                                                                     Number of     Percentage of
                                          Transaction Type
                                                                    Transactions       Total

                             Thrift Savings Plan (TSP) Changes         59,829          22.6%
                             Financial Allotment Start/Stop            57,902          21.9%
                             Federal Tax Withholding Changes           33,861          12.8%
                             View History (no changes)                 30,766          11.6%
                             Home Address Changes                      16,964            6.4%
                             State Tax Withholding Changes             15,765            6.0%
                             Savings Bond Changes                      15,094            5.7%
                             Direct Deposit Changes                    14,698            5.6%
                             Federal Health Benefit Changes            12,546            4.7%
                             Personal Identification Number (PIN)
                                                                        6,429            2.4%
                             Request
                             All others                                   769            0.3%
                             Total                                    264,623        100.0%
                             Source: The Employee Express System.


                                                                                         Page 1
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

               During our audit of the implementation of the Treasury’s
               human resources management information system, the
               HR Connect System,1 we identified several systems the
               Treasury intended to retire once the implementation was
               complete. It was originally planned that the HR Connect
               System would replace the National Finance Center (NFC)
               payroll system used by all Treasury bureaus and provide all
               payroll functions, including the self-service capabilities
               provided by the Employee Express System.
               However, in FY 2003, the Federal Government began its
               E-Payroll initiative, which called for the reduction of the
               number of Federal Government payroll systems. Under
               E-Payroll, the 26 existing payroll systems were to be
               combined into 4 payroll systems that serviced all agencies.
               The four systems included:
                   •   The Department of Agriculture NFC.
                   •   The Department of Defense Finance and Accounting
                       Services.
                   •   The Department of Interior National Business Center.
                   •   The General Services Administration National Payroll
                       Center.
               Consequently, the Treasury and all of its bureaus continued
               to use the NFC rather than convert to the HR Connect
               System payroll module. Furthermore, the Treasury
               continued to use the Employee Express System because of
               its ability to interface with the NFC.
               In February 2003, the NFC added a new feature to its
               Employee Personal Page called the Employee Self-Service
               Option, which offered many of the same capabilities as the
               Employee Express System. During our audit of the
               Treasury’s implementation of the HR Connect System,
               officials at one Federal Government agency advised us the
               agency had switched from the Employee Express System to
               the NFC Employee Self-Service Option. The agency
               switched because, unlike the Employee Express System, the
               Employee Self-Service Option was offered to NFC payroll

               1
                The Department of the Treasury’s HR Connect Human Resources
               System Was Not Effectively Implemented (Reference
               Number 2005-10-037, dated February 2005).
                                                                        Page 2
                    The Department of the Treasury Needs to Improve Its
                     Management of Employee Express System Funds

                                   customers at no additional charge. In FY 2004, 43 of the
                                   50 agencies serviced by the NFC were allowing their
                                   employees to use the Employee Self-Service Option to
                                   process pay transactions. This audit assessed whether such
                                   a conversion at the Internal Revenue Service (IRS) would be
                                   cost effective.
                                   This review was performed at the Treasury Office of the
                                   Chief Information Officer (CIO), HR Connect Program
                                   Office,2 in Washington, D.C., during the period February
                                   through June 2005. We also obtained information from
                                   the IRS Office of the Chief, Agency-Wide Shared
                                   Services, Employee Support Services Division, in
                                   New York, New York; Austin, Texas; and
                                   Cincinnati, Ohio; the OPM Macon Technical Center in
                                   Macon, Georgia; and the Department of Agriculture NFC
                                   in New Orleans, Louisiana. The audit was conducted in
                                   accordance with Government Auditing Standards. Detailed
                                   information on our audit objective, scope, and methodology
                                   is presented in Appendix I. Major contributors to the report
                                   are listed in Appendix II.
                                   In January 2005, at the same time we announced this
Conversion to the Employee
                                   review, the Treasury CIO began a study to determine the
Self-Service Option Offered by
                                   feasibility of discontinuing use of the Employee Express
the Payroll Service Provider Is
                                   System and offering its employees the NFC Employee
Not Yet Feasible
                                   Self-Service Option as an alternative. Both the CIO study
                                   and this audit identified problems that would result if the
                                   Treasury converted to the Employee Self-Service Option at
                                   this time. Specifically, the NFC Employee Self-Service
                                   Option does not allow employees to make changes by
                                   telephone, which affects approximately 34,000 IRS
                                   employees that do not have access to a computer. In
                                   addition, the NFC must complete upgrades to provide Help
                                   Desk assistance and document retention, which are already
                                   available via the Employee Express System.


                                   2
                                    For the period covered by this review, what is now known as the
                                   HR Connect Program Office changed names and reporting structure. It
                                   was called the Office of Human Resources Enterprise Solutions until
                                   September 2003. At that time, certain functions were split into the
                                   Office of Workforce Technology and the Office of Workforce Strategy
                                   and Effectiveness until May 2004, and then these functions were aligned
                                   under the HR Connect Program Office.
                                                                                                  Page 3
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

               Many IRS employees need to be able to perform payroll
               changes by telephone
               As of June 2005, over 34,000 IRS employees did not have
               email and/or Internet access. In FY 2004, 36,689
               (15 percent) of the 238,236 IRS Employee Express System
               transactions were completed using the telephone. The NFC
               Employee Self-Service Option is accessible only via the
               Internet. The lack of email/Internet capability is the primary
               problem with converting from the Employee Express
               System to the NFC Employee Self-Service Option. Table 2
               shows the number of telephone and Internet transactions for
               Treasury bureaus during FY 2004.
                   Table 2: FY 2004 Employee Express System Telephone and
                          Internet Transactions by Treasury Employees
                                                                           Telephone
                                              Internet      Telephone
                         Bureau                                           Transaction
                                            Transactions   Transactions
                                                                          Percentage
                Bureau of Engraving and
                                                 2,801            29          1.0%
                Printing
                Bureau of Public Debt            4,175           164          3.8%

                Departmental Offices             3,494            72          2.0%
                Financial Crimes
                                                  572               9         1.6%
                Enforcement Network
                Financial Management
                                                 5,675            62          1.1%
                Services
                IRS                           201,547         36,689         15.4%

                United States Mint               1,816            76          4.0%
                Office of the Comptroller
                                                 5,945           134          2.2%
                of the Currency
                Alcohol and Tobacco Tax
                                                 1,036              4         0.4%
                and Trade Bureau
                Other                             323               0         0.0%

                Totals                        227,384         37,239        14.1%
               Source: IRS Agency-Wide Shared Services, Employee Support Services
               Division.

               The NFC advised us that the costs associated with
               interactive voice response technology coupled with the
               limited projected use makes it too expensive to offer as part

                                                                               Page 4
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

               of the Employee Self-Service Option. However, the NFC
               would be willing to provide, at an additional expense, “live
               operator” support within its newly created call center to
               process the transactions for employees that cannot use the
               Employee Self-Service Option. Although this would not be
               “automated” or available all day and every day, it would
               provide a temporary alternative for the IRS campus and call
               site employees. However, the need for this will diminish
               with time. The IRS is planning to provide some employees
               access to the Internet following the 2005 Filing Season3 and
               to provide all employees this capability no later than
               January 1, 2006.
               The NFC Employee Personal Page does not provide
               telephone access to a Help Desk
               The Employee Express System provides its customers with
               access to a 12-hour telephone Help Desk every weekday.
               During FY 2004, the Employee Express System Help Desk
               responded to 40,713 requests from Treasury employees;
               39,034 requests were by telephone.4 Table 3 shows the
               types of calls the Help Desk responded to during FY 2004.
               This service cost the IRS approximately $43,000.5
               Beginning in FY 2005, the OPM reorganized its cost
               structure for the Employee Express System; the cost for the
               Help Desk is now included in the standard maintenance fee
               of $0.24 per employee, per month.




               3
                 The period from January through mid-April when most individual
               income tax returns are filed.
               4
                 The numbers of Help Desk transactions by category are for all
               Treasury employees; the numbers for each Treasury bureau were not
               available.
               5
                 This figure is based upon $0.50 per minute and includes faxing and/or
               emailing Federal Employee Health Benefit confirmation letters.
                                                                               Page 5
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

                   Table 3: Treasury Employees’ FY 2004 Employee Express System
                                      Help Desk Transactions

                                                      Number of      Percentage of
                              Transaction Type
                                                     Transactions        Total

                   PIN Problems or Changes              28,556          70.1%
                   Web Issues                            4,252          10.4%
                   Telephone Issues                      3,410              8.4%
                   Unsupported Functions                 1,360              3.3%
                   Callback                              1,005              2.5%
                   Invalid User                            279              0.7%
                   Need System Telephone Number            100              0.2%
                   Telecommunications Device for
                                                            43              0.1%
                   the Deaf Call
                   Federal Employee Health Benefit
                                                            29              0.1%
                   (FEHB) Confirmation
                   Web Email                             1,679              4.1%
                   Total                                40,713         100%6
               Source: The HR Connect Program Office and the OPM Macon
               Technical Center.

               The NFC Employee Self-Service Option provides
               web/email access to a Help Desk and is in the process of
               establishing a call center to handle all inquiries from human
               resources and payroll offices. In response to current and
               potential customers, the call center will also respond to calls
               from employees using the Employee Self-Service Option.
               The costs for this feature are not yet available. The NFC
               plans to establish interagency agreements and service level
               agreements based on the business requirements of each
               customer.
               The NFC Employee Self-Service Option does not retain
               records required for employees’ Official Personnel
               Folders
               The OPM requires all FEHB and TSP transactions to be
               documented in each employee’s Official Personnel Folder.7
               The OPM granted the Employee Express System a waiver

               6
                   Rounded to 100 percent.
               7
                   OPM Guide to Personnel Recordkeeping (dated May 2005).
                                                                              Page 6
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

               that allowed it to store these transactions electronically until
               the employee separates from the agency. In addition, the
               OPM approved an Employee Express System-generated
               transcript as a substitute for the paper forms.
               The Employee Express System has the capability to track an
               employee’s electronic transactions indefinitely. When an
               employee separates from an agency, the Employee Express
               System produces a transcript, and the OPM automatically
               sends it to the address specified for each agency. The
               agency needs to file the transcript only one time. Therefore,
               the human resources offices that use the Employee Express
               System do not need to use resources to print and mail
               documents.
               In FY 2004, the IRS paid the OPM $64,680 to process
               15,183 transcripts ($4.26 per document). For FY 2005, this
               service is included in the $0.24 per employee per month
               maintenance fee. In addition to the fees paid directly to the
               OPM, the IRS contracted for assistance from the
               Kansas City Official Personnel Folder Consolidated Site to
               file transcripts at a total cost of $12,146.8
               The NFC Employee Self-Service Option keeps records for
               only 1 year (26 pay periods) and does not have the
               capability to produce a transcript of FEHB and TSP
               transactions for more than 1 year. Further, it does not have
               an OPM-approved transcript nor a waiver to store the
               transactions electronically until the employee separates from
               the agency. Therefore, the human resources offices that use
               the NFC Employee Self-Service Option must file a Remote
               Forms Queuing System letter9 for transactions processed
               during the pay period in which they occur, to comply with
               OPM requirements for employees’ Official Personnel
               Folders.


               8
                 Under the existing IRS contract, the National Archives and Record
               Agency charges the IRS $.80 per file for each personnel document, such
               as a Notification of Personnel Action (Standard Form [SF] 50).
               9
                 The NFC Remote Forms Queuing System provides a status letter to the
               personnel office for every Health Benefits Election Form (SF 2809) and
               Thrift Savings Plan Election Form (TSP-1) processed through the
               Employee Express System. Copies of the letters are issued to the
               employee and retained in the employee’s Official Personnel Folder. The
               letters have not yet been approved by the OPM.
                                                                             Page 7
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

               Consequently, if the IRS converted to the Employee
               Self-Service Option, it would have to dedicate personnel to
               request, print, sort, and mail the documents to the
               Kansas City Official Personnel Folder Consolidated Site. In
               FY 2004, IRS employees initiated 11,810 FEHB
               transactions and 54,022 TSP transactions. In addition to the
               dedicated personnel, the annual filing cost at the
               Kansas City Official Personnel Folder Consolidated Site
               would increase from $12,146 to an estimated $52,665.10
               Moreover, the number of TSP transactions is expected to
               rise significantly with the elimination of the time restrictions
               for making changes that took effect on July 1, 2005.11
               The NFC is in the preliminary stages of developing the
               ability for retaining these transactions electronically in the
               Employee Self-Service Option. However, it has not
               determined if this service will be provided at an additional
               cost to its customers. Without this information, the IRS
               cannot perform a cost comparison of the proposed NFC
               Employee Self-Service Option service to that provided by
               the Employee Express System.
               The Treasury also has concerns regarding other limitations
               of the Employee Self-Service Option, including its inability
               to provide proof of health insurance coverage if a health
               insurance card is not received before the effective date and
               lack of the option to make contributions and/or change
               contributions to the Combined Federal Campaign during its
               open season. The NFC advised us that the Employee
               Self-Service Option will be able to provide proof of health
               insurance coverage by January 2006. The NFC does not
               have any plans to develop an option to make or change
               contributions to the Combined Federal Campaign, but it
               may consider this option in the future.



               10
                  Computed as 11,810 FEHB transactions + 54,022 TSP transactions =
               65,832 documents per year; 65,832 documents at $0.80 per document =
               $52,665.60 per year.
               11
                  Thrift Savings Plan Open Elections Act of 2004,
               Pub. L. No. 108-469,118 Stat 3891 (2004) eliminates the TSP open
               season and allows elections to become effective no later than the first
               full pay period after they are filed. IRS employees will use the
               Employee Express System to make these elections after June 30, 2005.
                                                                               Page 8
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

               The NFC is changing the price structure of its services
               In FY 2005, the NFC included the cost of the Employee
               Self-Service Option as part of its overall payroll services
               cost, regardless of whether the Option was used by the
               customer. The NFC has a study underway to separately
               charge for certain applications, such as the Employee
               Personal Page and the Employee Self-Service Option, to
               more accurately bill its customers. The NFC anticipates
               having this capability in FY 2006. Depending upon the
               services selected, the new price structure could change
               Treasury payroll service costs. The NFC does not expect
               the costs offered under this structure to be available until
               September 2005 and could not provide any preliminary cost
               data for the Employee Self-Service Option.
               The price structure for the Employee Express System also
               changed in FY 2005. Agencies now pay a flat rate of
               $0.24 per employee each month for account maintenance,
               plus an apportionment of development costs. There are no
               “per transaction” charges. The OPM bills quarterly based
               upon the number of employees processed by the NFC
               payroll service. Table 4 shows the amounts the IRS paid for
               the Employee Express System in FYs 2002 through 2004.
                         Table 4: IRS Employee Express System Costs
                                   (FYs 2002 Through 2004)

                         Fiscal Year                      Operating and
                                                        Development Costs

                          FY 2002                            $373,128
                          FY 2003                            $499,616
                          FY 2004                            $375,027
                          Total                             $1,247,771
               Source: The HR Connect Program Office.

               The Treasury will be unable to determine if the NFC
               Employee Self-Service Option is a cost-effective alternative
               to the OPM Employee Express System until the NFC
               provides the costs under the new structure. The Treasury
               will also need to consider the possibility of incremental
               costs associated with other improvements that are under
               development, such as the ability to retain transaction
               histories.

                                                                            Page 9
                    The Department of the Treasury Needs to Improve Its
                     Management of Employee Express System Funds

                                   The Treasury HR Connect Program Office manages some of
The Department of the Treasury
                                   the bureaus’ Employee Express System accounts. The HR
Overbilled the Internal Revenue
                                   Connect Program Office prepares the annual budget for
Service and Other Bureaus for
                                   anticipated Employee Express System costs for each bureau
Their Shares of Employee
                                   and transfers the funds electronically from the bureaus into
Express System Costs
                                   the Treasury Working Capital Fund.12 These funds are later
                                   electronically transferred to the OPM to pay for Employee
                                   Express System costs. The OPM provides the HR Connect
                                   Program Office with a quarterly billing summary that
                                   includes maintenance and development expenditures, as
                                   well as the account balances.
                                   The billing summaries for the bureaus managed by the
                                   HR Connect Program Office showed balances of funds
                                   available for the Employee Express System that appeared
                                   far greater than 1 year’s worth of anticipated costs. We
                                   compared the yearend available balances with the actual
                                   costs of the Employee Express System for FY 2004 for
                                   these bureaus. We also compared the yearend balances with
                                   annual costs for the bureaus that are not managed by the HR
                                   Connect Program Office. Table 5 shows the account
                                   balances for the bureaus managed by the HR Connect
                                   Program Office compared with those of the bureaus that
                                   manage their own accounts.13




                                   12
                                      A Working Capital Fund is a revolving fund authorized by law to
                                   finance a cycle of operations in which the costs for goods or services
                                   provided are charged back to the recipient.
                                   13
                                      Table 5 does not include bureaus affected by the creation of the
                                   Department of Homeland Security or bureaus created in FY 2004.
                                                                                                   Page 10
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

                    Table 5: Employee Express System Account Balances Compared
                                        With FY 2004 Costs

                                               FY 2004        FY 2004
                           Bureau                                          Percentage
                                            Ending Balance   Actual Cost

                Bureaus Managed by the HR Connect Program Office
                Bureau of Engraving and
                                               $33,497          $5,241       639.1%
                Printing
                Financial Management
                                               $49,991          $8,421       593.6%
                Services
                IRS                          $1,604,175      $375,027        427.7%
                Office of the Comptroller
                                               $75,645          $9,148       826.9%
                of the Currency
                Totals                       $1,763,308      $397,837        443.2%

                Bureaus Managing Their Own Accounts

                Bureau of Public Debt          $14,252          $6,621       215.3%

                Departmental Offices             $5,657         $5,673        99.7%
                Office of the Inspector
                                                 $3,546           $785       451.7%
                General14
                United States Mint               $9,925         $5,006       198.3%

                Totals                         $33,380         $18,085       184.6%
               Source: The HR Connect Program Office and the OPM.

               To determine why the fund balances kept on account at the
               OPM were so much greater than the annual expenditures,
               we further analyzed the IRS funds on account with the
               OPM, the Treasury billings for each year, and the actual
               costs for the Employee Express System for FYs 2002
               through 2004. During this time period, the IRS funds on
               account with the OPM for the Employee Express System
               increased by approximately $688,300 (75 percent). It
               appears that, even though the funds on account at the
               beginning of each of these years were enough to pay for the
               next year’s costs, the Treasury HR Connect Program Office
               continued to bill the IRS and collect additional funds.
               Table 6 shows the beginning balances, the amounts billed,
               and the actual costs for these years.


               14
                 The Office of the Inspector General FY 2004 account balance and
               expenses are from October 1, 2003, through June 30, 2004.
                                                                              Page 11
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

               Table 6: Treasury Billings to the IRS Compared With Actual Costs
                                  for FYs 2002 Through 2004

                                               FY 2002    FY 2003    FY 2004

                Beginning Balances             $915,874   $969,746 $1,479,201

                Treasury Billings to the IRS   $427,000 $1,009,071   $500,000
                Actual Employee Express System
                                               $373,128   $499,616   $375,027
                Costs
                Ending Balances                $969,746 $1,479,201 $1,604,174
               Source: The HR Connect Program Office and the OPM.

               Although the IRS had an account balance of over
               $1.6 million at the end of FY 2004, the HR Connect
               Program Office billed the IRS for an additional $250,000
               for FY 2005 Employee Express System costs. Based on the
               FY 2004 actual costs, the IRS had sufficient funding in its
               Employee Express System account to pay for the next
               4 years of service. The HR Connect Program Office also
               billed the other bureaus for FY 2005 Employee Express
               System costs, even though these bureaus had excess account
               balances from previous years. The HR Connect Program
               Office did not consider the amounts the bureaus already had
               on account with the OPM before requesting additional
               funding in each of the past 4 years.
               The HR Connect Program Office could not explain why it
               continued to collect additional funds each year despite the
               surplus account balances or why it has not returned surplus
               funds to the respective bureaus. We identified certain
               factors that contributed to this problem. There were errors
               in the budget estimates prepared by the HR Connect
               Program Office. In addition, there appeared to be poor
               communication between the HR Connect Program Office
               and the bureau officials responsible for Employee Express
               System funding.
               The HR Connect Program Office did not properly
               estimate the annual budget for the Employee Express
               System
               Each year, the OPM provides its Employee Express System
               customers with a worksheet for estimating costs for the next
               fiscal year. Prior to FY 2005, Employee Express System
               costs were itemized into specific services, such as
                                                                       Page 12
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

               maintenance charges, telephone access, PIN changes, and
               Help Desk calls. The HR Connect Program Office
               completed the worksheet for each bureau and prepared a
               billing document based on the estimated costs.
               The OPM worksheet advised agencies to estimate the cost
               for Help Desk calls by assuming an average of 5 minutes for
               each call, at a cost of $0.50 per minute. Agencies could
               then estimate the annual charges by using the number of
               calls made in the prior year. However, instead of using the
               number of calls made, the HR Connect Program Office
               estimated the bureaus’ Help Desk costs by using the number
               of minutes from the prior year and then multiplied that by
               5 minutes. This resulted in an overestimate of charges by
               approximately 500 percent. Table 7 shows the effect of this
               mathematical error on the amount the HR Connect Program
               Office billed the IRS for Employee Express System costs
               for FYs 2002 through 2004.
               Table 7: HR Connect Program Office Estimates for IRS Help Desk
                         Costs Compared With Actual Help Desk Costs
                                  in FYs 2002 Through 2004

                                          HR Connect
                                         Program Office     Actual Help
                       Fiscal Year                                              Difference
                                        Estimate for Help   Desk Costs15
                                           Desk Costs

                    FY 2002                $201,407          $42,503            $158,904

                    FY 2003                $212,515          $49,716            $162,799

                    FY 2004                $248,578          $43,414            $205,164

                    Totals                 $662,500          $135,633           $526,867
                    Source: The HR Connect Program Office and the OPM.

               The HR Connect Program Office made this error in each
               year for every bureau it supported. The HR Connect
               Program Office did not consider that the funds it requested
               were disproportionately higher than the amounts that had
               been expended in the prior year. In FY 2005, the OPM
               began charging customers a flat fee of $0.24 per employee
               per month for all maintenance expenditures including the



               15
                    Includes costs to fax and mail FEHB confirmation letters.
                                                                                   Page 13
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

               Help Desk, so the HR Connect Program Office did not
               make the same mistake in FY 2005.
               In addition, in FYs 2002 through 2004, the HR Connect
               Program Office billed the IRS a total of $842,359 for future
               system development costs for the Employee Express
               System. However, approximately $178,400 was actually
               spent during that time. The HR Connect Program Office
               could not provide documentation supporting the charges to
               the IRS. A Financial Specialist for the HR Connect
               Program Office claimed an IRS employee verbally
               requested that the funds be included for FYs 2002 and 2003.
               We could not verify this with the IRS because the employee
               died in 2003. The HR Connect Program Office Financial
               Specialist could not remember who requested additional
               developmental funding for FY 2004. Table 8 shows the
               effect of the future development funding on the funding
               request to the IRS for the Employee Express System.
                      Table 8: Effect of the Future Development Costs on the HR
                          Connect Program Office Collections From the IRS

                                           FY 2002        FY 2003        FY 2004

                    Maintenance Costs16     $367,241         $350,776     $375,724
                    Unsupported Future
                                              59,759          658,325       124,276
                    Development Costs
                    Totals                  $427,000      $1,009,101      $500,000
                    Source: The HR Connect Program Office.

               Although the IRS had paid for the future developmental
               costs, neither the HR Connect Program Office nor the IRS
               requested to be reimbursed for the funding when it became
               apparent that these costs would not be incurred.
               Furthermore, the funding was not applied to future
               maintenance costs for the Employee Express System. The
               unused future development costs and the error in estimating
               Help Desk costs contributed to the IRS’ large account
               balance.



               16
                  Includes monthly operations, PIN generation, telephone support, data
               transcription, transaction reports, and the erroneously charged Help
               Desk costs.
                                                                             Page 14
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

               Collection documents need to be more clearly itemized
               The HR Connect Program Office did not adequately notify
               the bureaus of their outstanding credit balances when it
               prepared annual Collection Letters. Instead, bureaus were
               provided with collection documents that consolidated
               Employee Express System costs with NFC payroll costs.
               As the Program’s manager, the HR Connect Program Office
               should alert the bureaus that surplus funds exist in the
               annual Collection Letters. In addition, the Collection
               Letters should itemize Employee Express System costs so
               bureau officials can determine if sufficient funds have been
               provided.
               In January 2005, IRS officials realized the IRS had a large
               credit balance and requested that the HR Connect Program
               Office advise the OPM to deobligate and return surplus
               funds. Nonetheless, the HR Connect Program Office did
               not submit the request to the OPM until May 2005.
               In FY 2005, the Treasury decided to consolidate
               management of the Employee Express System for all
               Treasury bureaus under the HR Connect Program Office.
               This decision was made to “improve service for [the]
               Treasury as a whole, rather than small [b]ureaus
               independently trying to address issues.” In light of the
               problems with budgeting and billing for the Employee
               Express System, we believe the HR Connect Program
               Office should clearly define its role and responsibilities as
               manager of the Employee Express System and inform each
               bureau of its responsibilities.

               Recommendations

               1. The Associate CIO, HR Connect Program Office,
                  should clearly define the Office’s role and
                  responsibilities as the manager of the Employee Express
                  System. These responsibilities should be clearly
                  communicated to each supported bureau.
                  Management’s Response: The Associate CIO,
                  HR Connect Program Office, agreed to better define the
                  Office’s roles and responsibilities in managing the
                  Employee Express System accounts and to transmit this
                  information by memorandum to the Treasury bureaus
                                                                     Page 15
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

                  through the HR Connect/NFC Payroll Operations
                  Governance Board.
               2. The Associate CIO, HR Connect Program Office,
                  should notify Treasury bureaus of surplus funds in
                  Employee Express System accounts so surplus amounts
                  can be refunded or applied to future Employee Express
                  System costs.
                  Management’s Response: On June 24, 2005, the
                  Associate CIO, HR Connect Program Office, notified all
                  Treasury bureaus of the surplus funds in their accounts
                  and gave them a choice to either receive a refund or
                  apply the funds toward future Employee Express System
                  costs.
               3. The Associate CIO, HR Connect Program Office,
                  should establish a quality review process for future
                  budget estimates for the Employee Express System to
                  ensure calculations are correct and there is adequate
                  documentation to support charges to the Treasury
                  bureaus.
                  Management’s Response: The Associate CIO,
                  HR Connect Program Office, will review budget
                  estimates, along with current account balances, before
                  they are sent to the Treasury bureaus. In addition, all
                  calculations used to obtain the budget estimates will be
                  clearly noted and all assumptions will be recorded.
               4. When preparing Collection Letters, the Associate CIO,
                  HR Connect Program Office, should identify how much
                  of the request is related to the Employee Express System
                  and how much funding is already on account for each
                  bureau.
                  Management’s Response: The HR Connect Program
                  Office will request that the Deputy Chief Financial
                  Officer revise the Collection Letter to include a budget
                  line item specifically for the Employee Express System
                  to show how much of the funding request is related to
                  the System. The HR Connect Program Office will
                  inform bureaus of their account balances before the
                  Collection Letters are presented to bureau officials for
                  approval.

                                                                    Page 16
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

               5. The IRS Chief, Agency-Wide Shared Services, should
                  request detailed supporting information, including fund
                  balances, before authorizing payment for Employee
                  Express System costs. This would also be applicable for
                  other Working Capital Fund payments.
                  Management’s Response: The IRS Chief, Agency-Wide
                  Shared Services, reconciled the IRS’ Employee Express
                  System balance and reallocated $750,000 in funding
                  overages. The Chief, Agency-Wide Shared Services,
                  also agreed to review quarterly statements, substantiate
                  all actual and estimated cost information, reconcile
                  account balances for the Employee Express System, and
                  initiate action to review future billings and cost
                  estimates for other Office of Agency-Wide Shared
                  Service programs billed through the Treasury’s Working
                  Capital Fund.




                                                                  Page 17
                    The Department of the Treasury Needs to Improve Its
                     Management of Employee Express System Funds

                                                                                    Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the services and benefits provided by the
Employee Express System to determine whether use of this System is cost effective.
Specifically, we assessed if it would be cost effective and practical for the Department of the
Treasury (the Treasury) bureaus (including the Internal Revenue Service (IRS)) to convert from
the Employee Express System to the National Finance Center (NFC) Employee Self-Service
Option. To accomplish our audit objective, we:
   I.      Evaluated the IRS and Treasury decision to use the Office of Personnel Management
           Employee Express System and determined whether alternatives exist.
           A. Identified the basis for the decision to use the Employee Express System.
           B. Determined the IRS’ needs for delivering employee information.
           C. Interviewed Treasury and IRS officials to obtain their perspectives on the
              advantages or weaknesses of the Employee Express System and alternative
              systems, specifically the NFC Employee Self-Service Option.
   II.     Compared the capabilities of the Office of Personnel Management Employee Express
           System with the NFC Employee Self-Service Option.
           A. Identified the capabilities of each System.
           B. Determined whether the IRS’ needs would be met through the NFC Employee
              Self-Service Option.
   III.    Performed benchmarking of the Employee Express System and Employee
           Self-Service Option.
           A. Identified Federal Government agencies using the NFC Payroll System.
           B. Identified Federal Government agencies using the Employee Express System.
           C. Interviewed officials with other Federal Government agencies to determine the
              rationale for their use of the Employee Express System or alternatives.
   IV.     Determined the costs of using the Employee Express System and Employee
           Self-Service Option.
           A. Interviewed Employee Express System and Employee Self-Service Option
              representatives.
           B. Reviewed billing documents and usage reports for costs associated with the
              Employee Express System.

                                                                                          Page 18
                   The Department of the Treasury Needs to Improve Its
                    Management of Employee Express System Funds

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Carl L. Aley, Audit Manager
Rosemarie M. Maribello, Lead Auditor
Joseph P. Smith, Senior Auditor
Richard J. Viscusi, Senior Auditor




                                                                                      Page 19
                  The Department of the Treasury Needs to Improve Its
                   Management of Employee Express System Funds

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Associate Chief Information Officer for HR Connect, Department of the Treasury OCIO
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Director, Employee Support Services OS:A:EES
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief, Agency-Wide Shared Services OS:A




                                                                                      Page 20
                    The Department of the Treasury Needs to Improve Its
                     Management of Employee Express System Funds

                                                                                            Appendix IV


                                       Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on Department of the Treasury (the Treasury) operations. This
benefit will be incorporated into our Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Funds Put to Better Use – Actual; $1,688,771 for excessive fund balances in Employee
    Express System accounts for Treasury bureaus managed by the HR Connect Program Office
    (see page 10).
Methodology Used to Measure the Reported Benefit:
At the end of Fiscal Year (FY) 2004, the Treasury bureaus managed by the HR Connect Program
Office had fund balances of $1,763,308. In FY 2005, the Treasury collected an additional
$323,300 for a total fund balance of $2,086,608. We compared the beginning-of-year fund
balance to the actual FY 2004 cost of the Employee Express System of $397,837 to arrive at
$1,688,771 in surplus funds that should be refunded and put to better use.
               Employee Express System Account Balances Compared With FY 2004 Costs
                         Bureaus Managed by the HR Connect Program Office

                                 FY 2004      FY 2005      FY 2005      FY 2004        Surplus Fund
               Bureau            Ending                     Credit
                                              Funding                  Actual Cost      Collections
                                 Balance                   Balance
       Bureau of Engraving
                                 $33,497       $15,000      $48,497       $5,241           $43,256
       and Printing
       Financial Management
                                 $49,991       $28,000      $77,991       $8,421           $69,570
       Services
       Internal Revenue
                              $1,604,175      $250,000   $1,854,175     $375,027        $1,479,148
       Service
       Office of the
       Comptroller of the        $75,645       $30,300     $105,945       $9,148           $96,797
       Currency
       Total                  $1,763,308      $323,300   $2,086,608     $397,837        $1,688,771
       Source: The HR Connect Program Office and the Office of Personnel Management.




                                                                                                      Page 21
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds

                                                      Appendix V


 Management’s Response to the Draft Report




                                                          Page 22
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds




                                                      Page 23
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds




                                                      Page 24
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds




                                                      Page 25
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds




                                                      Page 26
The Department of the Treasury Needs to Improve Its
 Management of Employee Express System Funds




                                                      Page 27
